NO. 20-5217
IN THE SUPREME COURT OF THE UNITED STATES

DAVIS KELSEY SPARRE,
Petitioner,

Vv.

STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this 30% day of September, 2020, a copy of the Respondent’s Brief in
Opposition in the above entitled case was furnished by United States mail, postage
prepaid, to Stacey Biggart, Assistant Capital Collateral Counsel, Capital Collateral
Regional Counsel — North, 1004 DeSoto Park Drive, Tallahassee, Florida 32301.
Respectfully submitted,

ASHLEY MOODY
ATTORNEY GENERAL

CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General
Florida Bar No. 158541

Counsel of Record

37
